April 16, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Marysville Processing and Distribution Facility Consolidation
         (Report Number EN-AR-08-003)

This report presents the results of our audit of the Marysville, California Processing and
Distribution Facility (P&DF) consolidation (Project Number 07XG045EN000). Our
objectives were to determine why mail was not routed in accordance with the approved
Area Mail Processing (AMP) package and why changes to the AMP were not reported
in the post-implementation reviews (PIR), and to assess the service impacts associated
with the consolidation and planned AMP reversal. We conducted this review at the
request of the Senior Vice President, Operations, and in cooperation with U.S. Postal
Service officials. Click here to go to Appendix A for additional information about this
audit.

Conclusion

Our review concluded the following.

•   Sacramento District management did not route mail volumes in accordance with the
    approved AMP because they stated they wanted to improve service performance at
    the Sacramento Processing and Distribution Center (P&DC), and considered
    rerouting the mail a normal operational decision instead of part of the AMP
    consolidation. The District Manager discussed the decision to reroute the mail with
    the Pacific Area Manager, Operations Support, who indicated the decision was to be
    made locally; however, we were not able to fully validate that conversation. A
    contributing factor to this situation was that AMP policy1 did not specifically address
    implementing deviations from an approved AMP.

•   The rerouted mail was not reported in the PIRs because of management oversight.

•   Service impacts associated with the consolidation were not accurately reported in
    the AMP or the PIRs because of management oversight. Management
    subsequently decided to reverse the AMP consolidation because overnight service

1
 Handbook PO-408, Area Mail Processing Guidelines, dated April 1995, provides a framework for consolidating
operations in the mail processing network.
Marysville Processing and                                                        EN-AR-08-003
 Distribution Facility Consolidation


    between Chico, California and San Francisco, Oakland, and Stockton, California
    was downgraded. We determined that plans to reverse the Marysville AMP
    consolidation will return mail to previous service standards, but will result in net
    service downgrades for 138 three-digit ZIP Code™ pairs.

Rerouted Mail Volume

Mail volume transfers associated with the Marysville AMP consolidation did not follow
the approved AMP. Specifically, approximately 20,000 pieces of last collection mail
were rerouted each day from the Chico Post Office (PO) to the Redding Main Post
Office (MPO) instead of to the Sacramento P&DC.

This occurred because the District Manager considered rerouting the last collection mail
to be a normal operational decision instead of part of the AMP consolidation. In
addition, the AMP policy did not specifically address implementing deviations from an
approved AMP. As a result, service performance for eight ZIP Code pairs (including
service from the Chico PO to the San Francisco, Oakland, and Stockton P&DCs) was
downgraded from overnight to 2-day service. In addition, information shared with
stakeholders was inaccurate. Click here to go to Appendix B for our detailed analysis of
this issue.

We are not making a recommendation because the Postal Service is revising the AMP
guidelines to address the reporting of deviations from approved AMPs.

Post-Implementation Reviews

The PIRs did not identify that mail had been rerouted to the Redding MPO for the
Marysville AMP consolidation.

According to the Sacramento District Manager, management considered rerouting mail
to be routine business and did not report it in the PIRs because of an oversight. In
addition, at the time, there was no guidance for reporting deviations to the AMP. The
revised Handbook PO-408 (currently in draft) addresses deviations from AMP
proposals.

Because the PIRs did not identify the rerouting of mail, the Postal Service could not be
sure that management was fully accountable for implementing decisions regarding
AMPs. Click here to go to Appendix B for our detailed analysis of this issue.

Training should address the management oversight issue. In a previous U.S. Postal
Service Office of Inspector General (OIG) report, we recommended the Postal Service
conduct AMP training sessions after it implements the revised AMP policy. Therefore,
this report does not include a recommendation for training.




                                              2
Marysville Processing and                                                   EN-AR-08-003
 Distribution Facility Consolidation



Service Impacts

Rerouting the Chico PO’s last collection mail to the Redding MPO resulted in service
downgrades for that mail. Management did not report these downgrades in the AMP
proposal or PIRs. As a result, the Senior Vice President, Operations, and Pacific Area
management have approved plans to reverse the AMP. However, reversing the AMP
will return mail to previous service standards, causing significant downgrades for all
classes of mail.

The downgrades in service associated with rerouting mail to the Chico PO occurred
because district management:

•   Did not review service implications before moving the mail.

•   Considered rerouting the last collection mail from the Chico PO to be a part of
    normal business that would improve service performance at the Sacramento P&DC.

As a result, management did not have accurate information on service impacts when
evaluating the consolidation impacts of moving mail to the Chico PO for processing. In
addition, reversing the Marysville AMP will return 138 ZIP Code pairs to pre-AMP
service standards, resulting in downgraded service performance.

We recommend the Vice President, Pacific Area Operations:

1. Document costs and service implications from reversing the consolidation of the
   Marysville outgoing mail into the Sacramento Processing and Distribution Center.

Management’s Comments

Management agreed with our recommendation and planned to document cost and
service implications by April 4, 2008. Management also provided clarifying information
for various issues in this report. We have included management’s comments, in their
entirety, in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issue identified in the report. The OIG
considers the recommendation significant, therefore, it requires OIG concurrence before
closure. Consequently, the OIG requests written confirmation when management
completes the corrective action. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that it can be
closed. In addition, where appropriate we incorporated management’s suggestions to
clarify the report.




                                            3
Marysville Processing and                                                    EN-AR-08-003
 Distribution Facility Consolidation



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    David E. Williams, Jr.
    Rosemarie Calabrese-Fernandez
    Katherine S. Banks




                                           4
Marysville Processing and                                                                                              EN-AR-08-003
 Distribution Facility Consolidation



                                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s business environment is challenging due to declining First-Class
Mail® (FCM) volume, increasing competition with traditional mail products from the
private sector, increasing automation and mail processing by mailers, and shifting
population demographics. In addressing these challenges, the Postal Service
continually looks for opportunities to streamline operations, reduce costs, increase
operational effectiveness, and improve service. Despite an increase in mail volume
during fiscal year (FY) 2005, the aggregate volume of FCM declined by 6.3 percent (6.5
billion pieces) from FYs 2002 to 2007. In addition, the Postal Service projects that FCM
volume will continue to decline. Figure 1 shows these trends.

                                              FIGURE 1: FIRST-CLASS ACTUAL (2002 - 2007) AND
                                                  PROJECTED (2008 - 2012) MAIL VOLUME

                         110




                         105




                         100
    Pieces In Billions




                          95




                          90




                          85




                          80
                               2002   2003   2004    2005     2006      2007        2008   2009   2010   2011   2012
                                                                     Fiscal Years




In addition, eCommerce and electronic messaging are slowly replacing personal paper-
based correspondence and will continue to influence the volume growth of single-piece
FCM. As FCM volume declines, the total number of mailpieces delivered to each
address could decline as well.

The Postal Service’s strategic objectives are defined in its Transformation Plan,2 which
states the agency is committed to improving its operational efficiency by consolidating


2
    Strategic Transformation Plan, 2006-2010, Annual Progress Report, December 2006.




                                                                                    5
Marysville Processing and                                                                                  EN-AR-08-003
 Distribution Facility Consolidation


mail processing operations when feasible. In addition, the President’s Commission3
found the Postal Service had more facilities than needed and recommended optimizing
the facility network by closing and consolidating unneeded processing centers. The
Postal Accountability and Enhancement Act4 (Postal Act of 2006), signed into law on
December 20, 2006, further encourages the Postal Service to continue streamlining its
processing and distribution network to eliminate excess costs.

Handbook PO-408 provides a framework for consolidating operations in the mail
processing network and performing PIRs. Issued in April 1995, these guidelines state
that consolidations should improve operational efficiency and service, make optimum
use of available resources, and ensure management’s accountability for consolidating
operations. The Postal Service is currently revising the AMP guidelines and testing the
revised AMP worksheets. They expect to issue the revised AMP guidelines in the
spring of 2008.

The Postal Service uses the AMP process to consolidate mail processing functions and
to eliminate excess capacity, increase efficiency, and better use resources. The Postal
Service defines AMP as:

         . . . the consolidation of all originating and/or destinating distribution operations
         from one or more post offices into another automated or mechanized facility to
         improve operational efficiency and/or service.

The Sacramento P&DC and Marysville P&DF are in the Pacific Area. Management
consolidated originating mail5 from the Marysville P&DF into the Sacramento P&DC as
of February 1, 2006. The AMP proposal was for the three-digit ZIP Code 959.

In an August 2007 memorandum, the Senior Vice President, Operations, expressed
concerns about implementation of the Marysville AMP and requested that the OIG
review it because there appeared to be deviations between the approved AMP the
Pacific Area submitted and the changes actually implemented. He also expressed
concern that the deviations were not reported in the PIRs.

The approved AMP stated that all originating mail from the Marysville P&DF was to be
consolidated into the Sacramento P&DC. The two Marysville PIRs reported that the
AMP was implemented as approved. However, approximately 20,000 pieces of
outgoing mail per day from the Chico PO were rerouted to the Redding MPO for
processing, rather than to the Sacramento P&DC as stated in the approved AMP. This
mail represents less than 10 percent of the mail volume transferred as part of the AMP
consolidation.


3
  The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.
4
  Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.
5
  Outgoing mail is sorted within a mail processing facility and dispatched to another facility for additional processing
or delivery.




                                                            6
Marysville Processing and                                                                       EN-AR-08-003
 Distribution Facility Consolidation


This deviation affected overnight service to the San Francisco, Oakland, and Stockton
P&DCs for the last mail collection originating at the Chico PO. Additionally, the change
from the approved plan was not reported to the Pacific Area or headquarters in the two
Marysville AMP PIRs. The Pacific Area conducted PLANET® Code seeding6 tests that
showed the routing of the Chico PO’s mail through the Redding MPO and the
downgraded service standards. As a result of service downgrades, the Pacific Area has
now approved plans to reverse the AMP consolidation.

The Postal Act of 2006 requires the Postal Service to establish a facilities plan, which
must include information regarding cost-saving initiatives. The Postal Act of 2006 also
requires the Postal Service to submit an annual report to Congress on how its decisions
have impacted or will impact network rationalization plans. The report must include
actions taken to identify excess capacity within the processing, transportation, and
distribution networks and implement savings through realigning or consolidating
facilities. The report must include overall estimated costs and cost savings.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objective was to review selected aspects of the Marysville AMP
consolidation. Specifically, we determined why mail volumes were not routed in
accordance with the approved AMP package and why changes to the AMP were not
reported in the PIRs, and we assessed service impacts from the AMP consolidation
and planned AMP reversal. We reviewed applicable guidelines, including Handbook
PO-408, and other documents including the Marysville AMP and the corresponding
PIRs. We also conducted interviews with plant, district, area, and headquarters
personnel.

We did not validate all costs, savings, or service performance associated with the
consolidation of originating mail processing operations from the Marysville P&DF to the
Sacramento P&DC.

This AMP proposal for consolidating mail processing operations was submitted to
Postal Service Headquarters for approval and implementation in FY 2005 and our data
analysis focused on the same time frames management used. We relied on data
obtained from the Enterprise Data Warehouse, the 24-hour clock indicators, and the
Transportation Information Management Evaluation System and Service Standard
Directory. We did not directly audit the systems, but performed a limited review of data
integrity to support our reliance on data. See Appendix C for a timeline of events in the
consolidation.

We conducted this performance audit from October 2007 through April 2008 in
accordance with generally accepted government auditing standards and included such

6
 A PLANET (Postal Alpha-Numeric Encoding Technology) Code is a 12-digit barcode. The Postal Service’s barcode
sorting equipment reads the barcode and makes mail processing information (such as when and where the mail was
processed) available. PLANET Codes applied to selected mailpieces can help track the path of the mailpiece.




                                                      7
Marysville Processing and                                                          EN-AR-08-003
 Distribution Facility Consolidation


tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on January 29, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

As indicated below, we issued three audit reports that addressed AMP policies.
Management has addressed prior OIG audit recommendations in the proposed
revisions to AMP policy.

                                                              Report     Final Report
                             Report Title                    Number          Date
           Review of the Automated Area Mail              EN-MA-08-001   Oct 19, 2007
           Processing Worksheets
           Service Implications of Area Mail Processing   EN-AR-07-002   Dec 05, 2006
           Consolidations
           Area Mail Processing Guidelines                NO-AR-06-001   Dec 21, 2005




                                                   8
Marysville Processing and                                                                                                  EN-AR-08-003
 Distribution Facility Consolidation



                                  APPENDIX B: DETAILED ANALYSIS

Rerouted Mail Volume

District management made mail volume transfers that did not follow the approved
Marysville AMP package. Specifically, approximately 20,000 pieces of mail per day
were rerouted from the Chico PO to the Redding MPO – which was not identified in the
approved AMP – for processing.

Before management implemented the Marysville AMP, all Chico PO mail was sent to
the Marysville P&DF for processing. FCM was then sent to the Sacramento P&DC for
overnight delivery to the Stockton, Oakland, and San Francisco P&DCs.

After AMP implementation, all Chico PO mail was sent directly to the Sacramento
P&DC for processing and distribution. However, within 1 month of AMP
implementation, Chico’s last collection mail was sent, instead, to the Redding MPO for
processing and distribution. The Redding MPO had the capacity and was able to
process the Chico PO’s mail. However, mail routed through the Redding MPO to
Stockton, Oakland, and San Francisco was downgraded to 2-day service standards.
Chart 1 shows mail flow before and after the AMP.

                Chart 1. Chico PO Last Collection Mail Flow Pre- and Post-AMP


                                                         Approximately 20,000 Last Collection Mailpieces
                   Redding MPO                                  to Redding MPO For processing


                                                                                                      Chico PO

                                                                            First-Class
                                                                         Overnight Service




                                                    Marysville P&DF
                                Chico First-Class
                                 2-day Service


                                                             First-Class Overnight
                                                                   2 & 3 Day




                       Legend                                                                    Sacramento P&DC
                   Post -AMP
                                                                                                          First-Class
                   Pre -AMP                                                                            Overnight Service



                                                                 San Francisco, Stockton, Oakland


This occurred because the District Manager indicated it would improve service
performance at the Sacramento P&DC; the last collection mail at Chico did not always



                                                                     9
Marysville Processing and                                                                          EN-AR-08-003
 Distribution Facility Consolidation


arrive at the Sacramento P&DC by critical entry time, which contributed to a lower
performance score for that plant. In addition, the District Manager considered rerouting
the last collection mail at the Chico PO as a normal operational decision instead of as
part of the AMP consolidation. The District Manager said she discussed the decision to
reroute this mail with the Pacific Area Manager, Operations Support, who indicated the
decision was to be made locally. However, we were not able to fully validate that
conversation.

In addition, Postal Service guidance did not address deviations from an approved AMP.
However, the revised Handbook PO-408,7 currently in draft, states that when
substantive changes to the implemented AMP are warranted, the area AMP coordinator
must outline those changes and provide revised worksheets and supporting justification
to the managers who approved the original proposal and to the Senior Vice President,
Operations.

The Pacific Area also performed two PLANET Code tests in 2006 and 2007. The
Pacific Area learned of the mail being rerouted to Redding MPO as a result of the
second test, performed from March 28 through April 4, 2007.

As a result of the rerouted mail volume, service performance for eight ZIP Code pairs
(Chico PO to the San Francisco, Oakland, and Stockton P&DCs) was downgraded from
overnight to 2-day service. This downgrade was not reported when the mail was
rerouted.

Post-Implementation Reviews

The PIRs did not document that some mail had been rerouted to a facility not identified
in the approved Marysville AMP. The Pacific Area learned that the Chico PO’s last
collection mail had been rerouted after completion of a second PLANET Code test on
April 4, 2007. The test results showed that some mail was processed at the Redding
MPO instead of the Sacramento P&DC as identified in the approved AMP. The second
PIR was submitted to Postal Service Headquarters for approval on April 30, 2007, after
management completed the PLANET Code testing.

This situation occurred mainly because of oversight by district and area management.
In addition, the current criteria did not provide guidance on reporting modifications to an
approved AMP in the PIRs. The existing Handbook PO-408 states that PIRs are
designed to ensure the projected savings and improved operational efficiency have
been achieved and management is accountable for implementing decisions regarding
the AMP.




7
 Revised Handbook PO-408 is planned for release in the spring of 2008. This guidance is found in the July 2007
draft version.




                                                       10
Marysville Processing and                                                                                  EN-AR-08-003
 Distribution Facility Consolidation


Because the PIRs did not state that mail had been rerouted, the Postal Service could
not be assured that management was accountable for implementing decisions
regarding the AMP consolidation.

Service Impacts

Postal Service officials performed several service reviews after implementation of the
Marysville AMP. These reviews were performed to examine potential service issues
and to determine whether the consolidated mail achieved service standards.8
Specifically:

•   Headquarters performed a service review shortly after the AMP implementation,
    from February 6–13, 2006. The review was conducted because of irregularities in
    processing operations, transportation, maintenance, and delivery units. The issues
    identified were addressed with Sacramento District management and the Pacific
    Area Office.

•   The Pacific Area Office performed a service review from January 11–18, 2007, and
    a follow-up review on March 14, 2007. The Pacific Area conducted the service
    reviews to identify processes that were negatively impacting overnight service
    performance. The team identified several opportunities for improvement in
    processing operations. In addition, Pacific Area management conducted on-site
    visits with local management to review operations.

•   The Pacific Area performed two PLANET Code tests: one from June 6–29, 2006,
    and the other from March 28–April 4, 2007.9 The first PLANET Code test identified
    late scans for mail arriving at the Sacramento P&DC from the Chico PO. The
    second identified the mail rerouted to the Redding MPO. The area office sent the
    results to the Sacramento District Senior Plant Manager for review.

The service impacts of the Marysville AMP consolidation were not accurately reported in
the AMP proposal or PIRs. Specifically:

•   The original AMP proposal, dated October 17, 2005, did not report service
    downgrades for any of the mail classes. The AMP projected 13 upgrades in FCM
    and 56 upgrades in Priority Mail® service standards.

•   The first and second PIRs, dated October 2006 and April 2007, did not show any
    downgrades in service standards because of the rerouted mail. However, the PIRs
    reported upgrades and downgrades in mail service for the various classes of mail.
    See Table 1 for details.

8
  Because of their small size, the Postal Service did not include the Marysville and Chico facilities in the External
First-Class Measurement system it uses to measure service performance.
9
  PLANET Code testing was not required by the PIR process.




                                                            11
Marysville Processing and                                                                EN-AR-08-003
 Distribution Facility Consolidation



         Table 1. Service Standards for Various Mail Products Due to Consolidation

     Service Standard      Priority    First-Class   Periodicals   Packages   Standard    Total
     Upgrade                    56              13           34          20         29       152
     Downgrade                    0              0             6          0          8        14
     Net                        56              13           28          20         21       138


Additionally, the Pacific Area approved plans to reverse the Marysville AMP
consolidation in August 2007. Reversing the AMP will result in:

•   Net service downgrades for 138 three-digit ZIP Code pairs, including 13 FCM
    upgrades that were achieved by the consolidation.

•   Service upgrades for eight three-digit ZIP Code pairs to Sacramento, Oakland, and
    San Francisco that were downgraded due to the rerouted mail.

The discrepancies in reported service impacts occurred because district management:

•   Did not review service implications before moving the mail.

•   Identified FCM service downgrades that resulted from moving the last collection mail
    from the Chico PO to the Redding MPO for processing. Because FCM service
    downgrades were identified, the Postal Service is planning to reverse the AMP
    consolidation.

Handbook PO-408 states that impacts to service commitments should always be
included in executive summaries of the AMP and PIRs. In addition, worksheets 7 and 8
require information on service downgrades for all classes of mail and service upgrades
to FCM and Priority Mail. The handbook also states that in some circumstances, such
as the inability to maintain service commitments, reversing an AMP may be necessary.
Management’s practice has been to implement AMPs only when they do not result in
FCM service downgrades.

Because of these conditions, Postal Service officials did not have accurate information
about service impacts when evaluating the consolidation. Reversing the AMP will also
return 138 ZIP Code pairs to pre-AMP service standards, resulting in downgraded
service performance.




                                                     12
Marysville Processing and                                                                                                                                   EN-AR-08-003
 Distribution Facility Consolidation



                                                                                          APPENDIX C: MARYSVILLE PROCESSING AND DISTRIBUTION FACILITY
                                                                                                       CONSOLIDATION/REVERSAL TIMELINE

                                                                                             Marysville P&DF Consolidation/Reversal Timeline

                                                                                                                             AMP                                                               Area shared
             AMP                                                                                                                                                               Area
                                                HQ Service                                                               Semi-Annual                                                           Plant Code                    HQ Memo to                                   Implementa-
          approved by                                                                                                                                                         Service
                                                 Review                                                                       PIR                                                                Seeding                       Area VP                                     tion of AMP
              HQ                                                                                                                                                           Review follow-
                                              Feb 6 -13, 2006                                                               (PIR#1)                                                             results with                  authorizing                                    Reversal
          Oct 17, 2005                                                                                                                                                          up
                                                                                                                           Oct 2006                                                               District                   AMP Reversal                                  Jan 21, 2008
                                                                                                                                                                            Mar 14, 2007
                                                                                                                                                                                               May 18, 2007                   Aug 9, 2007

             Discussions/move mail to Redding (AO, District, Plant)
                            Oct 2005 to Apr 2006




        Oct-05   Nov-05   Dec-05    Jan-06     Feb-06    Mar-06       Apr-06   May-06   Jun-06   Jul-06    Aug-06   Sep-06   Oct-06    Nov-06   Dec-06   Jan-07   Feb-07   Mar-07    Apr-07    May-07      Jun-07   Jul-07   Aug-07   Sep-07   Oct-07   Nov-07   Dec-07   Jan-08   Feb-08

                                                                                                                                                           Area
                                     Marysville                                             Planet Code                                                                             Planet Code              Area informed
                                                                                                                                                          Service
                                       AMP                                                  Seeding (#1)                                                                            Seeding (#2)               HQ of AMP
                                                                                                                                                          Review
                                   Implemented                                               Jun 15-29,                                                                               Mar 28 to                deviations
                                                                                                                                                         Jan 11-18,
                                    Jan 6, 2006                                                 2006                                                                                 Apr 4, 2007              Jun 29, 2007
                                                                                                                                                           2007



                                                                                                                                                                                            AMP Annual
                                                                                                                                                                                             PIR (PIR#2)
                                                                                                                                                                                            Apr 30, 2007




                                                                                                                                                13
Marysville Processing and                                    EN-AR-08-003
 Distribution Facility Consolidation


                         APPENDIX D: MANAGEMENT’S COMMENTS




                                        14
Marysville Processing and                   EN-AR-08-003
 Distribution Facility Consolidation




                                       15
